<html>
<title> - SECURING THE U.S. RESEARCH ENTERPRISE FROM CHINA'S TALENT RECRUITMENT PLANS</title>
<body><pre>[Senate Hearing 116-286]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-286

 SECURING THE U.S. RESEARCH ENTERPRISE FROM CHINA'S TALENT RECRUITMENT 
                                 PLANS

=======================================================================

                                HEARING

                               BEFORE THE

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 OF THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-995 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
       

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                      Thomas Spino, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
JOSH HAWLEY, Missouri                JACKY ROSEN, Nevada

            Andrew Dockham, Staff Director and Chief Counsel
                   Amanda Neely, Deputy Chief Counsel
                John Kilvington, Minority Staff Director
                      Kate Kielceski, Chief Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Portman..............................................     1
    Senator Carper...............................................     4
    Senator Hassan...............................................    20
    Senator Romney...............................................    23
    Senator Hawley...............................................    26
    Senator Rosen................................................    28
Prepared statements:
    Senator Portman..............................................    41
    Senator Carper...............................................    45

                               WITNESSES
                       Tuesday, November 19, 2019

John Brown, Assistant Director, Counterintelligence Division, 
  Federal Bureau of Investigation, U.S. Department of Justice....     7
Rebecca Keiser, Ph.D., Office Head, Office of International 
  Science and Engineering, National Science Foundation...........    10
Michael S. Lauer, M.D., Deputy Director for Extramural Research, 
  National Institutes of Health, U.S. Department of Health and 
  Human Services.................................................    12
Hon. Chris Fall, Ph.D., Director, Office of Science, U.S. 
  Department of Energy...........................................    13
Edward J. Ramotowski, Deputy Assistant Secretary of State, Bureau 
  of Consular Affairs, U.S. Department of State..................    15

                     Alphabetical List of Witnesses

Brown, John:
    Testimony....................................................     7
    Prepared statement...........................................    48
Fall, Hon. Chris Ph.D.:
    Testimony....................................................    13
    Prepared statement...........................................    65
Keiser, Rebecca Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    53
Lauer, Michael S. M.D.:
    Testimony....................................................    12
    Prepared statement...........................................    58
Ramotowski, Edward J.:
    Testimony....................................................    15
    Prepared statement...........................................    68

                                APPENDIX

Staff Report.....................................................    75
Chinese Talent Plan Contracts Violate U.S. Research Values Chart.   236

 
 SECURING THE U.S. RESEARCH ENTERPRISE FROM CHINA'S TALENT RECRUITMENT 
                                 PLANS

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2019

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rob Portman, 
Chairman of the Subcommittee, presiding.
    Present: Senators Portman, Romney, Hawley, Carper, Hassan, 
and Rosen.
    Also present: Senator Scott.

            OPENING STATEMENT OF SENATOR PORTMAN\1\

    Senator Portman. With Senator Carper's attendance, this 
hearing will come to order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Portman appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    Last night, Senator Carper and I released an investigative 
report\2\ detailing the threat of China's talent recruitment 
programs and what it poses to U.S.-funded research. This is, as 
some of you know, the Subcommittee's third investigation 
focusing on China issues. We exposed China's role in fueling 
the opioid crisis by shipping deadly synthetic fentanyl to the 
United States using the U.S. Postal Service (USPS). Earlier 
this year, we detailed China's propaganda efforts through the 
Confucius Institutes on U.S. college campuses and high schools. 
Both of these investigations have resulted in constructive 
bipartisan legislative efforts to address the serious problems 
we identified, and we expect the same will happen with regard 
to the issue we are talking about today.
---------------------------------------------------------------------------
    \2\ The Staff Report appears in the Appendix on page 75.
---------------------------------------------------------------------------
    This report follows an 8-month investigation into how the 
American taxpayer has, in effect, unwittingly funded research 
that has contributed to China's global rise over the past 20 
years. Through talent recruitment programs, China has 
strategically and systematically acquired knowledge and 
intellectual property from researchers and scientists in both 
the public and private sector. Think artificial intelligence 
(AI) or 5G.
    America built the world's most successful research 
enterprise based on certain values, including collaboration, 
integrity, peer review, transparency, and improving the public 
good. The open and collaborative nature of research in America 
is one of the reasons we attract the best and brightest in the 
world. Some countries, however, have exploited America's 
openness to advance their own national interests. The most 
aggressive is China.
    For China, international scientific collaboration is not 
solely about advancing science for the global good. It is by 
their own admission about advancing China's national security 
and economic interests. They have been clear about it. China's 
stated goal is to be the world's leader in science and 
technology (S&T) by 2050.
    To achieve its science and technology goals, China has 
implemented a whole-of-government campaign to recruit talent 
and foreign experts from around the world. China uses more than 
200 talent recruitment programs to lure foreign-trained 
scientists, researchers, and entrepreneurs into providing China 
with technical know-how, expertise, and foreign technology.
    Our investigation focused on China's most prominent program 
called the ``Thousand Talents Plan (TTP).'' Launched in 2008, 
China designed the Thousand Talents Plan to recruit 2,000 high-
quality overseas experts. By 2017, China dramatically exceeded 
its recruitment goal, recruiting more than 7,000, and I quote, 
``high-end professionals.''
    Our report also details how the Chinese Communist Party 
controls and administers these talent recruitment programs. 
Thousand Talents Plan members typically receive a salary and 
funding for their research from Chinese institutions, such as 
Chinese universities or research institutions. In exchange for 
the salary and research funding, which sometimes include what 
is called a ``shadow lab'' in China, members sign legally 
binding contracts with the Chinese institutions that typically 
contain provisions that prevent the members from disclosing 
their participation in the program. This requirement, of 
course, runs counter to U.S. regulations that require grant 
recipients to disclose foreign funding sources. In effect, it 
incentivizes program members to lie on grant applications to 
U.S. grantmaking agencies and to avoid disclosing their funding 
from Chinese institutions.
    China now wants to keep this quiet. Following increased 
public scrutiny, a year ago, in October 2018, 10 years into the 
program, China scrubbed online references to the Thousand 
Talents Plan and deleted the names of the participating 
scientists and researchers. The names of participating 
scientists and researchers are no longer publicly available, 
and we do not reveal the names of individual members in this 
report. But in the interest of transparency, our report does 
include examples of Chinese Thousand Talent Plan contracts\1\ 
and case examples of members engaging in illegal and unethical 
behavior. We thought it was important to publish this 
information so that the U.S. higher education community and 
Federal Government agencies see firsthand that these contracts 
and case examples contradict our own research values.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Portman appears in the Appendix 
on page 236.
---------------------------------------------------------------------------
    These talent recruitment programs are a win-win for China. 
China wins twice. First, U.S. taxpayers are funding this 
research, not China. They do not have to pay for it. Second, 
China then uses the research it would not otherwise have to 
advance its own economic and military interests.
    The Subcommittee reviewed the Federal Government's efforts 
to mitigate the threat posed by the Chinese talent recruitment 
programs to the U.S. research enterprise. We found that the 
U.S. Government was slow to recognize the threat and even today 
lacks a coordinated interagency strategy to secure U.S. 
research.
    First and foremost, Federal law enforcement must recognize 
these threats and must inform the public. Despite China's 
publicly announcing the Thousand Talents Plan in 2008, it was 
not until mid-2018, last year, that Federal Bureau of 
Investigation (FBI) headquarters in Washington, D.C., took 
control of the response to the threat posed by the Thousand 
Talents Plan.
    I do appreciate the FBI's candor in Mr. Brown's prepared 
statement for today's hearing where he says he wishes the FBI 
had taken ``more rapid and comprehensive action in the past,'' 
and I told Mr. Brown that this morning. While I fully 
understand why there have been complexities in this case, I 
want you to know that we stand ready to work with the FBI to 
protect U.S. taxpayer-funded research.
    Second, despite spending more than $150 billion of taxpayer 
money per year funding research and development (R&D), our 
Federal grantmaking agencies, like the Department of Energy 
(DOE), the National Institute of Health (NIH), National Science 
Foundation (NSF), who we will hear from today, lack a uniform 
and coordinated process to award, track, and monitor Federal 
grant funds. That leaves our research dollars vulnerable.
    As an example, the Department of Energy's prominent role in 
advanced research and development make it particularly 
attractive to the Chinese Government. The Department of Energy 
is the largest Federal sponsor of research in the physical 
sciences. Most of this research occurs in our Nation's national 
labs.
    Through our investigation, we learned that Thousand Talents 
Plan members worked at national labs on sensitive research and 
maintained security clearances. One Thousand Talents Plan 
member used intellectual property created during work in a 
national lab and filed for a U.S. patent under the name of a 
Chinese company, effectively stealing the U.S. Government-
funded research and claiming it for the Chinese company.
    Another member downloaded more than 30,000 files from a 
national lab without authorization right before this individual 
returned to China.
    Just last year, the National Institutes of Health, started 
reviewing its grants for connections to the Thousand Talents 
Program. The NIH found instances of grant fraud by failing to 
disclose foreign funding and associations, theft of 
intellectual capital and property, and violations of the peer 
review process by sharing confidential grant applications, 
which is against NIH rules.
    The National Science Foundation has taken several but yet 
insufficient steps in its attempt to mitigate the risk of 
Chinese talent recruitment programs. In July 2019, just a few 
months ago, the NSF prohibited its employees from joining 
talent recruitment programs, but the policy does not apply to 
the more than 40,000 NSF-funded researchers who actually 
conduct the research and are the most likely to be members and 
targets of a talent recruitment program. NSF does not have any 
employees dedicated to grant oversight.
    Third, the State Department is on the front lines here due 
to its responsibilities to vet visa applications for visiting 
students and scholars. The State Department has a process to 
review visa applicants it believes may attempt to steal 
sensitive technologies or intellectual property. But it rarely 
denies visas under that process.
    Finally, U.S. universities and U.S.-based researchers must 
take responsibility in addressing this threat. If universities 
can vet employees for scientific rigor or allegations of 
plagiarism, they can also vet for financial conflicts of 
interest and foreign sources of funding.
    These are complicated risks that the U.S. research 
community and the Federal Government must better understand. 
The threat to fundamental research is not always black and 
white. It is not always about legal or illegal.
    On a more positive note, starting earlier this year the 
White House's Office of Science and Technology Policy (OSTP) 
has hosted productive seminars and listening sessions with 
Federal agencies and U.S. research institutions on how to 
respond to these threats. We look forward to working with the 
White House and the agencies to assist with appropriate 
legislation.
    I will be the first to acknowledge that our relationship 
with China is complicated. However, one thing is very simple: 
It is not in our national security interest to fund China's 
economic and military development with U.S. taxpayer dollars.
    I look forward to the hearing today, and with that, I turn 
to Ranking Member Tom Carper for his opening statement.

             OPENING STATEMENT OF SENATOR CARPER\1\

    Senator Carper. Thanks, Mr. Chairman. Thanks for, I 
thought, really an excellent statement. We are joined here 
today by five witnesses, and some of you have been before us 
before, some not. Whether this is your first tour of duty here 
or maybe a second or third, we welcome you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    I sit before you as a recovering Governor, and as it turns 
out, I am not the only one here. To my left, former Governor 
Hassan from New Hampshire served two terms. Former Governor 
Romney chose to serve just one term as Governor of 
Massachusetts. He could have been elected Governor for life, if 
he had chosen--well, for half-life.
    Senator Romney. From your lips. [Laughter.]
    Senator Carper. Former Governor Scott from Florida. I 
approach this job as a recovering Governor. During the two 
terms I was privileged to be Governor of Delaware, more jobs 
were created in my little State than at any time in Delaware 
history before or since. I did not create one of them. What I 
did is I worked very hard with the legislature, which was half 
Democrat, half Republican, and with a lot of stakeholders in my 
State and outside of our borders to try to create a more 
nurturing environment for job creation and job preservation. 
Governors do not create jobs. Senators do not create jobs. 
Presidents do not create jobs. But working with a lot of other 
folks in our States and out of our States, we can create a 
nurturing environment.
    What else is in that nurturing environment? I spoke to a 
big, a transportation group from all over the country earlier 
today. Roads, highways, bridges--hugely important. Ports, 
airports, rail--hugely important. A well-educated workforce. We 
have 5 million jobs that nobody went to work today to fill 
because they do not have the training, the education, the 
skills, or the desire to do those jobs. Maybe they cannot pass 
a drug test. That is a big element.
    Common-sense regulations, an affordable tax burden, public 
safety would be one as well; clean air and clean water; the 
ability to export goods and services all over the world and to 
make sure that other nations are not illegally dumping their 
stuff on our economy. Open space. Clean air, clean water, open 
space, beautiful beaches, cybersecurity, investments in R&D 
that can be commercialized and turned into economic ventures, 
successful entrepreneurial activity, protection of intellectual 
property, access to decisionmakers, and the list goes on.
    What I am trying to do here at the outset is to put in 
context what we are focused on, and there is not just one way 
to create jobs and create that nurturing environment. There are 
a lot of ways. But among the most important is the ability to 
invest in R&D that actually leads to job creation and to make 
sure that we protect the intellectual property that is like 
mother's milk.
    Every now and then I have used the phrase ``eating our seed 
corn,'' and that is not something you want to do, whether you 
are a business or a State or a nation. In this case, China is 
attempting to, with some success, eat our seed corn, and we 
cannot allow them to do that.
    Those of us serving in the Congress--in the Senate, the 
House--and those serving in the administration play a key role 
in ensuring that our country continues to be a place where 
businesses can thrive and create jobs.
    A big part of our job when it comes to economic 
competitiveness involves helping the United States remain on 
the cutting edge with respect to R&D. We invest, as I am sure 
you know, a significant amount of taxpayer money every year in 
doing just that. I am told that the agencies before us today 
spend roughly $45 billion each year to fund research at 
colleges, universities, and other institutions across our 
country. These investments have led to major innovations. I 
will mention a couple of them.
    For example, a National Science Foundation grant supported 
a Stanford University project that eventually led to the 
founding of Google, one of the most successful companies in the 
world.
    NIH and Department of Energy grants were critical to the 
success of the Human Genome Project, an historic undertaking 
that will deliver medical and economic benefits for decades to 
come.
    As the report we issued today points out, though, the 
Chinese Government has for more than a decade sought to boost 
its own research and innovation capabilities by exploiting 
investments that America has made and is making. They have 
recruited, as the Chairman said, thousands of experts from a 
wide range of fields to transfer intellectual property 
developed here in the United States of America to China in 
order to benefit Chinese researchers, Chinese businesses, and 
ultimately, in many cases, the Chinese military.
    A number of American researchers who have been drawn into 
this effort even sign contracts with their Chinese employers. 
In at least some cases, these contracts give China ownership of 
technologies and innovations that Americans have discovered and 
developed. Some of those contracts even require that 
information about the researchers' Chinese ties be kept from 
their American employers and the Federal agencies that fund 
their work.
    Our report contains examples of contracts that researchers 
working with the Chinese Government must sign, along with case 
studies detailing the steps that some American researchers have 
taken to aid China while hiding their activities from our 
government.
    I hope that the publication of this information will 
inspire a serious and urgent conversation on university 
campuses and among scientists and researchers about the growing 
threat that China's talent recruitment efforts pose for our 
country. I hope it also leads to an appreciation of the 
consequences that come from giving a foreign government so much 
access to and control over the vital research we rely on to 
fuel our economic engines for competitiveness and bolster our 
national defense.
    Having said that, we should not step back from 
international collaboration in science and technology. As 
China's aggressive efforts show, our scientists, research 
institutions, and universities remain the best in the world and 
serve as a magnet for talented people to do meaningful, 
cutting-edge work. We need to keep investing in that work while 
doing more to keep scientists, their innovations, and the jobs 
that flow from those innovations here, right here in this 
country.
    But we also need to be smart and take the steps necessary 
to ensure that conflicts of interest are disclosed and those 
who might be looking to cheat and steal to get ahead no longer 
receive Federal research dollars.
    I was pleased to hear in preparing for this hearing about 
some of the steps that agencies have begun taking to better 
manage and secure Federal research programs. For example, 
agencies have reached out to universities and research 
institutions across our country to raise awareness about this 
threat and emphasize the importance of fully reporting foreign 
collaborators. Some have also implemented policies prohibiting 
employees from participating in foreign talent recruitment 
plans.
    These are good first steps, but we need to do even more. 
Due to our lax oversight of Federal research grants and the 
ineffective and mixed messages that agencies have been 
delivering to schools and researchers on this topic over the 
years, we have given the Chinese and likely other countries a 
running start. We cannot continue to allow this to happen.
    We look forward to hearing from all of our witnesses today 
about how we can further improve our efforts to deny our 
competitors and adversaries the opportunity to continue to reap 
economic and military gains at our expense in the future.
    Delaware was the first State to ratify the Constitution. 
When we were kids in school, we had to memorize the Preamble to 
the Constitution. Maybe you did, too. But it starts off with 
these words: ``We the People of the United States, in Order to 
form a more perfect Union'' Think about that. It does not say 
``a perfect Union.'' It says ``a more perfect Union.'' I sort 
of capsulize that and say that everything we do we know we can 
do better. This is an area where we really need to do better. 
We need to be your partner. As we used to say in the Navy, all 
hands on deck.
    All right. Let us go get them. Thanks so much. Thanks for 
joining us.
    Senator Portman. Thank you, Senator Carper.
    We will now call the panel of witnesses. Again, thank you 
all for being here.
    John Brown is with us. He is the Assistant Director with 
the Counterintelligence Division of the Federal Bureau of 
Investigation.
    Dr. Rebecca Keiser is the Office Head of the Office of 
International Science and Engineering of the National Science 
Foundation.
    Dr. Michael Lauer is the Deputy Director for Extramural 
Research within the National Institutes of Health.
    The Honorable Dr. Christopher Fall, who is a confirmed 
member of the panel, is the Director of the Office of Science 
with the Department of Energy.
    Edward Ramotowski is the Deputy Assistant Secretary for 
Visa Services at the Bureau of Consular Affairs of the State 
Department.
    It is the custom of this Subcommittee to swear in all 
witnesses. I would ask you to please stand and raise your right 
hand. Do you swear that the testimony you will give before this 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Brown. I do.
    Ms. Keiser. I do.
    Dr. Lauer. I do.
    Mr. Fall. I do.
    Mr. Ramotowski. I do.
    Senator Portman. Thank you. Please be seated.
    Let the record reflect that the witnesses all answered in 
the affirmative. All of your written testimony will be printed, 
and I encourage people to look at that testimony because, as I 
said earlier, there are some very interesting elements to it. 
But we would ask you to try to limit your oral testimony to 5 
minutes this morning, and then we will have the opportunity to 
have questions.
    Mr. Brown, we will hear from you first.

        TESTIMONY OF JOHN BROWN,\1\ ASSISTANT DIRECTOR, 
COUNTERINTELLIGENCE DIVISION, FEDERAL BUREAU OF INVESTIGATION, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Brown. Thank you, Chairman Portman, Ranking Member 
Carper, Members of the Subcommittee. Thank you for the 
opportunity to appear before you today, and thank you for 
highlighting the national security and economic threat from 
Chinese talent plans. I want to thank you for your report as 
well. I had a chance to go through it a little bit last night. 
We all want to do better, absolutely, and I think that is why 
we are all here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brown appears in the Appendix on 
page 48.
---------------------------------------------------------------------------
    Time and time again, the Communist Government of China has 
proven that it will use any means necessary to advance its 
interests at the expense of others, including the United 
States, and pursue its long-term goal of being the world's 
superpower by 2049.
    As you well know, make no mistake: We are in a fight, a 
fight where the attack surface is our institutions, companies, 
and universities. Admittedly, in 2008, America did not fully 
understand the threat that we face today. The Chinese 
Government knows that economic strength and scientific 
innovation are the keys to global influence and military power, 
so Beijing aims to acquire our technology--often in the early 
stages of development--as well as our expertise to erode our 
competitive advantage and supplant the United States as a 
global superpower. As part of this effort, China has been 
making extensive use of nontraditional collectors. These 
individuals are not ``spies'' in the traditional sense of 
intelligence officers, but they are nonetheless collecting 
information sought by the Chinese Government.
    Among its many ways of collecting information, prioritized 
in its national strategies, the Chinese Government oversees 
expert recruitment programs known as ``talent plans.'' Through 
these programs, the Chinese Government offers lucrative 
financial and research benefits to recruit individuals working 
and studying outside of China who possess access to or 
expertise in high-priority research fields. These talent 
recruitment programs include not only the well-known Thousand 
Talents Plan but also more than 200 similar programs, all of 
which are overseen by the Chinese Government and designed to 
support its goals, most of the time at U.S. taxpayers' expense.
    While mere participation in a talent plan is not illegal, 
investigations by the FBI and our partner agencies have 
revealed that participants are often incentivized to transfer 
to China the research they conduct in the United States, as 
well as other proprietary information to which they can gain 
access, and as such remain a significant national security 
threat to the United States. In some cases, this has resulted 
in violations of U.S. law, including economic espionage, theft 
of trade secrets, and grant fraud.
    Talent plan participation can also violate conflict-of-
interest policies put in place by American research 
institutions or Federal grant agencies, particularly if talent 
plan participants fail to disclose their sources of funding.
    In addition, many talent plan participants sign contracts 
outlining work that mirrors the research they perform at 
American institutions. These contracts subject participants to 
the broad laws of the Chinese Government and, ironically, 
strictly protect China's right to the patents and other 
intellectual property developed during work within the talent 
plan.
    It is also important to mention that last year, after we 
began some high-visibility arrests and prosecutions of talent 
plan members, the Chinese Government responded by abruptly 
removing their public information about these programs and 
their participants, as the Chairman mentioned. If these plans 
are as innocuous as they try to imply, why the shift to 
secrecy?
    By contrast, anyone can go online and search every grant 
awarded by the National Science Foundation. The U.S. Government 
does not conceal our research funding because we have nothing 
to hide. The Chinese Government's abrupt concealment is not 
just an admission of the ulterior motives of their talent 
plans; viewed more broadly, it is yet another illustration of 
China's lack of openness, fairness, and reciprocity, as 
contrasted with the behavior of free nations like the United 
States and our allies.
    I would also like to note that people of any ethnicity may 
be recruited to join talent plans, so I cannot overstate that 
ethnicity plays no role in our investigations. Instead, we 
follow facts and evidence wherever they lead. We have never 
asked any university, company, or other entity to profile 
people based on ethnicity, and we would be appalled if they 
did. As is true for all FBI programs, we investigate specific 
individuals when we have specific evidence that they are 
engaged in unlawful activity or pose a threat to national 
security.
    Nor do we have any intention of chilling academic freedom 
or curtailing international exchange. Quite the reverse. 
International collaboration plays a crucial role in the 
development of scientific breakthroughs throughout U.S. 
research institutions. The open and collaborative nature of the 
American academic environment produces advanced research and 
cutting-edge technology, but it also puts our universities at 
risk for exploitation by foreign adversaries looking to advance 
their own scientific, economic, and military development goals. 
Our goal is to preserve academic freedom and free enterprise by 
maintaining a fair, open environment and protecting campuses 
and companies from malign foreign actors.
    It is essential for the FBI to continue protecting American 
research from unfair exploitation while ensuring that our 
academic and business environments remains free and open. To 
advance that mission, we have developed strong partnerships 
with other Federal agencies, some of whom sit beside me today, 
and we will continue working together to safeguard American 
research, technology, and ingenuity.
    As a sign of the importance we place on our partnerships, 
since my arrival, beginning October 1, each of our 56 field 
offices has established a Counterintelligence Task Force, akin 
to the Joint Terrorism Task Forces (JTTFs), which brings 
together the capabilities of participating agencies in that 
field office's area of responsibility. We support this through 
a centralized National Counterintelligence Task Force, which 
will assist as a coordinating entity with matters such as 
budget, memoranda of understanding (MOU), as well as serving as 
a coordination element in its own right with the interagency.
    Engagement outside of government is another essential part 
of our work. Each of our 56 field offices has frequent, 
substantive engagement with universities and businesses in its 
area of responsibility, thereby allowing a customized exchange 
of information about cases, threats, and trends. This 
engagement by counterintelligence personnel is done in tandem 
with private sector coordinators, who are field office 
personnel whose full-time job is to develop and coordinate 
private sector relationships across all programs.
    We also direct national-level engagement from FBI 
headquarters; this takes many forms, so I will provide just a 
few examples. Since June of 2018, the Counterintelligence 
Division has been partnering with the three largest university 
associations: the American Council on Education, the 
Association of American Universities, and the Association of 
Public and Land-grant Universities. We have also been doing 
this through a series of meetings and events outlined by the 
Office of the Private Sector (OPS).
    Since my arrival, we have also created an Engagement 
Office, which works with OPS, field offices, and other 
components to strengthen engagement and promote messaging on 
key threats.
    The FBI previously also conducted university engagement 
through the National Security Higher Education Advisory Board 
(NSHEAB), a small subset of university presidents who 
periodically met at FBI headquarters. Today the FBI's OPS 
continues to hold events for university presidents, including 
an annual academic summit that includes approximately three 
times as many universities as NSHEAB did.
    That said, we always seek new ways to improve our 
effectiveness. With our present-day knowledge of the threat 
from Chinese talent plans, we wish we had taken more rapid and 
comprehensive action in the past, and the time to make up for 
that is now. We appreciate the conclusions of your report, and 
we welcome your questions. Thank you for allowing me to go over 
my time.
    Senator Portman. Thank you, Mr. Brown.
    Again, your full written statement will be part of the 
record, so please try to keep your oral testimony to 5 minutes. 
I thank you for your candor at the end of that statement about 
what we should have been doing. Dr. Keiser.

 TESTIMONY OF REBECCA KEISER, PH.D.,\1\ OFFICE HEAD, OFFICE OF 
    INTERNATIONAL SCIENCE AND ENGINEERING, NATIONAL SCIENCE 
                           FOUNDATION

    Ms. Keiser. Thank you, Chairman Portman, Ranking Member 
Carper, and Members of the Subcommittee. My name is Rebecca 
Keiser, and I am the head of the National Science Foundation's 
Office of International Science and Engineering. I would like 
to echo my appreciation for your report and bringing these 
issues to the attention of the public.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Keiser appears in the Appendix on 
page 53.
---------------------------------------------------------------------------
    It is a pleasure to be with you today to discuss the steps 
NSF is taking to advance the United States' position as a 
global innovation leader, ensure our economic strength, and 
provide for national security.
    An independent agency created by Congress in 1950, NSF's 
mission is unique in the Federal Government. We support 
fundamental research across all fields of science, technology, 
engineering, and mathematics (STEM) and all levels of STEM 
education.
    NSF investments have been vital to many discoveries, and 
the agency has a strong record of investing in groundbreaking 
research that not only advances the frontiers of science but 
changes the world. Senator Carper mentioned Google, there are 
many others.
    The United States leadership in scientific R&D is built 
upon sustained investment in fundamental research and a strong 
public-private partnership among government, academia, and 
industry. It is this uniquely American model that has propelled 
innovation and driven our economy for decades.
    As AI, quantum computing, and other rapidly emerging 
technologies set the stage for the future, NSF is committed to 
advancing U.S. leadership and funding the most promising 
research and researchers. To do so, it is important that we 
reaffirm our commitment to the global research enterprise while 
also taking the necessary steps to protect federally funded 
research.
    International collaboration is essential to advancing the 
frontiers of science. This was most recently illustrated by the 
Event Horizon Telescope team, which included more than 300 
researchers at 60 institutions in over 20 countries. Together, 
they used an array of eight ground-based radio telescopes to 
image a black hole 55 million light-years from Earth. As the 
scientific community strives to answer complex questions, this 
type of global cooperation becomes increasingly necessary.
    The United States also benefits significantly from the 
influx of international talent to our country. The best and 
brightest scientists from around the world have come to the 
United States due to the freedom, openness, creativity, and 
resources available here. We must continue to foster an open 
and inviting environment for these researchers.
    We must also confront current threats to the global 
research enterprise. The principles that drive the NSF and our 
global partners are openness, transparency, and reciprocal 
collaboration for mutual benefit. However, when others endeavor 
to benefit without upholding these principles, the entire 
system is put at risk.
    Indeed, as the Committee's report points out, some 
governments are currently sponsoring activities such as foreign 
government-sponsored talent recruitment programs that do just 
that. That is why NSF is taking steps and working with our 
colleagues across the government, including those here today, 
to address these risks. NSF's actions include emphasizing 
compliance with disclosure rules, both for NSF staff and the 
institutions and researchers we fund; requiring all NSF 
personnel to be U.S. citizens or in the process of becoming 
citizens; barring NSF staff from participating in foreign 
talent recruitment programs; and increasing awareness of the 
risks throughout the scientific community.
    We have also engaged the JASON Advisory Group to conduct a 
study and recommend ways NSF can ensure security while 
maintaining the open fundamental research system. We expect 
that report to be released before the end of the calendar year.
    Finally, we work closely with our Office of Inspector 
General (OIG) to stay aware of and respond to these dynamic 
threats as they arise. We have and will continue to take steps 
such as terminating grants and debarring researchers when such 
action is appropriate. NSF is dedicated to maintaining a 
vibrant and diverse research community that thrives on the 
principles of openness, transparency, and merit-based 
competition. With communication and coordination across the 
Federal Government, including with our law enforcement and 
intelligence agencies, and collaboration with our colleagues in 
academia, we are confident we can do so.
    Thank you again for the opportunity to testify before you 
today. Thank you.
    Senator Portman. Thank you, Dr. Keiser. Dr. Lauer.

  TESTIMONY OF MICHAEL S. LAUER, M.D.,\1\ DEPUTY DIRECTOR FOR 
   EXTRAMURAL RESEARCH, NATIONAL INSTITUTES OF HEALTH, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Lauer. Thank you, Chairman Portman, Ranking Member 
Carper, and Subcommittee members. I am honored to be here today 
to represent the National Institutes of Health as the Deputy 
Director for Extramural Research.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Lauer appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    As this is not a Committee before which NIH has appeared 
often, I think it would be helpful to say a bit about the work 
we do and provide that as a context for the hearing.
    NIH is the world's largest leading public funder of global 
biomedical research enterprise supporting more than 300,000 
researchers and staff each year across the Nation. 
Groundbreaking research funded by NIH conducted in institutions 
in each of your home States has transformed the health of 
America. Every generation has benefited from the scientific 
advances and increased life expectancy that NIH helps to usher 
in.
    To support the very best science, NIH pioneered the gold 
standard for peer review of research grant applications. In 
fiscal year (FY) 2018, we asked more than 26,000 peer reviewers 
to assess the merit of more than 80,000 applications under 
consideration for funding. Unfortunately, it has become 
apparent that a small number of scientists have received 
foreign research support that they did not properly disclose in 
their grant applications as required, have obligations to 
institutions other than those identified in their grant 
applications, and have attempted to subvert the peer review 
process for personal gain. In all these instances, these 
behaviors may lead to inappropriate funding decisions and 
ultimately to the diversion of proprietary information from 
American institutions.
    As of October 2019, we have contacted more than 70 awardee 
institutions about specific concerns we have related to these 
issues, and this process is ongoing. Partnering with research 
institution leadership is key as NIH awards are made to 
institutions, not to individuals.
    Our efforts have led to discoveries of significant 
violations of terms and conditions that have led to personnel 
being removed from grants or even being terminated from their 
institutions. Increasingly, institutions are adopting better 
monitoring and reporting systems. NIH staff have been 
explicitly trained to objectively identify suspicious activity 
of peer reviewers and of key personnel in grant applications 
and to report this to NIH research integrity officers.
    We regularly partner with colleagues at the Department of 
Health and Human Services (HHS) and other Federal agencies to 
exchange information on emerging threats. We also engage our 
stakeholder community through a variety of fora, including the 
Advisory Committee of the NIH Director, which promotes the 
public discussion about best practices to prevent and detect 
untoward foreign influences in our system.
    We are working closely with the Office of Science and 
Technology Policy, OSTP, and others to develop resources to 
help awardee institutions understand our expectations regarding 
research investigators who, in addition to NIH funding, receive 
additional research funding from domestic or foreign sources. 
The OSTP has convened a Subcommittee on Research Security under 
the National Science and Technology Council, Joint Committee on 
the Research Environment, to coordinate Federal efforts to 
effectively communicate and provide outreach to research 
institutions, develop guidance and best practices for research 
institutions, and standardize conflict of interest and 
disclosure policies and procedures of research funding agencies 
across the Federal Government. I am privileged to serve as a 
co-chair of the Subcommittee.
    That stated, we remain conscious of how these actions could 
affect the morale of honest and dedicated foreign-born 
researchers who are hard at work assisting in and often leading 
the advancement of scientific knowledge. Since 2000, 38 percent 
of U.S. Nobel Prizes in physics, chemistry, and medicine have 
been awarded to foreign-born scientists. U.S. scientists 
routinely collaborate productively with investigators in 
foreign countries. Furthermore, because disease emerged from 
many parts of the world, we must rely on productive research 
collaborations with foreign entities in order to share 
information on seasonal and pre-pandemic influenza or emergent 
and reemerging infectious diseases such as SARS and MERS, Zika 
and Ebola.
    The individuals violating laws and policies represent a 
small proportion of scientists working in and with U.S. 
institutions. We cannot afford to reject brilliant minds 
working honestly and collaboratively to provide hope and 
healing to millions around the world.
    In closing, we at NIH are devoted to ensuring that American 
taxpayers get the full benefit of their investment in NIH, the 
very best science conducted in the most ethical way that leads 
to improvements in health for them and their families.
    Thank you, and I look forward to your questions.
    Senator Portman. Thank you, Dr. Lauer. Dr. Fall.

  TESTIMONY OF THE HONORABLE CHRIS FALL, PH.D.,\1\ DIRECTOR, 
          OFFICE OF SCIENCE, U.S. DEPARTMENT OF ENERGY

    Mr. Fall. Chairman Portman, Ranking Member Carper, and 
Members of the Subcommittee, thanks for the invitation to 
testify before you today on the threat that foreign government 
talent recruitment programs in science and technology pose to 
the United States. The Department of Energy appreciates the 
opportunity to discuss our policies and procedures concerning 
this issue, and we are grateful that the Committee is leading 
on this important problem. We feel that the report you have 
just issued will be especially useful in highlighting the scope 
of the challenge.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Fall appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    The intersection of science and security is one of the most 
important issues of our time in science and technology. At the 
Department of Energy, we are addressing this problem carefully, 
thoughtfully, and deliberately in order to ensure that any new 
policies that we introduce in this space are considered, 
effective, and do not harm the world-leading science enterprise 
of the United States.
    While I am here to represent the Department of Energy, the 
testimony from my colleagues here highlights the fact that the 
administration is taking a whole-of-government approach to 
these issues and that the Department of Energy is fully 
involved in science security policy decision processes across 
the government.
    The DOE is committed to preserving the foundational 
principles of the science and technology enterprise like open 
data access, transparency, reciprocity, and meritocracy that 
are the bedrock of global science and technology.
    Great scientific discoveries come from collaborations and 
reciprocal exchanges that cross national borders, that leverage 
the best minds from around the world, and that adhere to these 
traditions and principles of collaborative basic science. 
American participation in overseas projects like the Large 
Hadron Collider at CERN in Europe and foreign participation in 
U.S.-based projects like the Long Baseline Neutrino Facility at 
Fermi Lab are outstanding current examples of deep 
international collaboration and cooperation, both the exchange 
of people and funding.
    The Department of Energy plans to accelerate the 
identification and execution of opportunities for S&T 
cooperation and knowledge sharing with counterparts and 
investigators from around the world who share those 
foundational scientific principles.
    While international cooperation is essential to accelerate 
research and development, some governments are aggressively 
pursuing access to U.S. science and technology advancements and 
intellectual property to the detriment of our economic 
prosperity and national security.
    The Department of Energy is aware of situations in which 
individuals have been offered hundreds of thousands or even 
millions of dollars to conduct research on behalf of foreign 
talent recruitment programs while supported by U.S. agencies.
    We have also seen DOE laboratory personnel recruited by 
talent programs and who are now affiliated with foreign 
military R&D programs.
    The Department has provided for inclusion in the 
Subcommittee's report specific examples of foreign talent 
recruitment programs successfully targeting our national 
laboratory employees.
    The Department of Energy is taking action to tighten 
compliance with existing rules and to implement a series of new 
policies regarding international science and technology 
cooperation involving the DOE laboratories.
    For example, we announced in February and have since 
implemented a new policy related to foreign government talent 
recruitment programs sponsored by identified countries of risk. 
These talent recruitment programs are often part of broader 
whole-of-government strategies to reduce costs associated with 
basic research while focusing investment on military 
development or dominance in emerging technology sectors, as was 
discussed by the Chairman.
    At this time, these countries of risk are limited to China, 
Russia, Iran, and North Korea. Under this order, DOE Federal 
and contractor personnel, including laboratory employees, are 
prohibited from participating in talent recruitment programs 
sponsored by these countries of risk while employed by the DOE 
or performing work within the scope of a Department of Energy 
laboratory contract.
    DOE Federal employees have longstanding broad restrictions 
on their outside work activities. At this time, though, the 
policy does not currently extend to our non-contractor 
grantees, such as at universities.
    The DOE considers relevant programs to include any foreign 
State-sponsored attempt to acquire U.S. scientific-funded 
research or technology through foreign government-run or funded 
recruitment programs that target scientists, engineers, 
academics, researchers, or entrepreneurs of all nationalities 
working or educated in the United States. That is pretty 
comprehensive.
    History suggests that these programs, their names, and 
their characteristics can change over time as we scrutinize 
them and implement policies to mitigate their effects. 
Therefore, we continue to collaborate closely with law 
enforcement and intelligence agencies charged with identifying 
and monitoring those threats.
    The Department of Energy is working closely with 
laboratories, scientific and academic communities to develop 
these ideas and policies, and any further policy actions 
affecting DOE activities outside our own laboratories, such as 
extramural support to universities, is being fully coordinated 
through the interagency.
    In conclusion, the Department of Energy takes the threat 
posed by foreign government talent programs extremely 
seriously. The moment the leadership team at the Department of 
Energy found out about the changing landscape and the scope of 
this problem, the leadership and particularly Deputy Secretary 
Brouillette directed us to tackle this and solve the problem. 
The Department has taken steps to limit the impact to our own 
laboratory system while preserving and enhancing international 
scientific collaboration, and we are working to develop 
additional policies and procedures such as the technology risk 
matrix that we can talk about along with the other science and 
technology mission agencies.
    Thank you for the opportunity to come before you today, and 
I look forward to discussing this critical topic with you and 
to answering your questions.
    Senator Portman. Thank you, Dr. Fall. Mr. Ramotowski.

    TESTIMONY OF EDWARD J. RAMOTOWSKI,\1\ DEPUTY ASSISTANT 
SECRETARY OF STATE, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. Ramotowski. Good morning, Chairman Portman, Ranking 
Member Carper, and distinguished Members of the Committee. 
Thank you for the opportunity to testify today about the 
Department of State's visa screening process, particularly as 
it pertains to Chinese nationals and threats to sensitive or 
proprietary technology. We share the concerns of this 
Subcommittee regarding the risks that nontraditional Chinese 
collectors pose to our Nation. National security remains our 
highest priority when adjudicating U.S. visas.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ramotowski appears in the 
Appendix on page 68.
---------------------------------------------------------------------------
    International exchange between citizens of the United 
States and China is crucially important to our bilateral 
relationship. We welcome legitimate Chinese students and 
exchange visitors, as President Trump himself reiterated in 
October. China consistently sends more students to the United 
States than any other country, and their presence benefits our 
economy and society in multiple ways. Nevertheless, the United 
States must remain clear-eyed and vigilant against the Chinese 
Government's repeated attempts to abuse the good will and 
openness of our country.
    The Chinese Government is actively engaged in large-scale 
collection of sensitive technological expertise from the United 
States. The publicly stated policy of military-civil fusion 
seeks to accelerate the modernization of its military and 
industrial capabilities. As Assistant Secretary for East Asia 
and Pacific Affairs David Stilwell noted in his Senate 
testimony last month, this raises serious concerns for the 
United States. It increases the risk of diversion of U.S.-
origin equipment, material, technology, and other kinds of 
intellectual property to China's military programs.
    Moreover, the Chinese Communist Party has declared the 
Chinese university system to be on the front line of military-
civil fusion efforts for technology acquisition, for weapons 
research, and the expansion of key scientific and engineering 
talent to drive Chinese innovation.
    The Department of State is the first line of defense in 
border security. We work closely with partner agencies which 
identify and define new threats and areas of concern, including 
visa applicants who seek to work or study in sensitive fields 
that might have military applications. Therefore, State and 
partner agencies have taken initial steps to mitigate the risks 
posed by China's military-civil fusion strategy by increasing 
scrutiny of certain Chinese visa applicants. This effort will 
augment already existing criteria for enhanced vetting of 
certain applicants as well as specialized training for consular 
officers serving in China.
    This carefully calibrated response is part of a greater 
national effort to address the threat of any foreign visitors, 
whether from China or anywhere else, who seek to acquire 
sensitive U.S. technology. We and our partners have built a 
layered visa and border security screening system. We continue 
to refine and strengthen the five pillars of visa security, 
which are technological advances, biometric innovations, 
personal interviews, data sharing, and training for consular 
officers in the field.
    The Immigration and Nationality Act (INA) currently allows 
consular officers to make visa ineligibility findings for only 
a narrow set of applicants whose expected activities involve 
violation of a current export control law. While we work in 
close partnership with other government agencies to protect our 
borders, ultimately the law as it is currently written 
restricts the discretion of consular officers to find visa 
applicants ineligible, even when there is reason to believe the 
applicant may intend to export technology that many consider to 
be sensitive but which is not currently controlled.
    Ultimately, this threat cannot be countered through the 
visa applicant screening process alone. An effective strategy 
requires a comprehensive approach involving all stakeholders, 
not just the U.S. Government, as the Chairman has outlined.
    Congress can play an important role to increase engagement 
with business leaders, U.S. academic institutions and research 
laboratories, and others to explain the reality of these and 
our actions to counter the Chinese Government's efforts to 
modernize its military using U.S. technology. We need Congress' 
help to counter the false narrative that the United States is 
somehow weaponizing visas against ordinary Chinese citizens. By 
involving Chinese students and researchers in its pursuit of 
these technologies, the Chinese Government itself has put at 
risk the visas of some of its own citizens. We must not allow 
the Chinese Government to control this narrative. We are taking 
reasonable and appropriate steps to protect our intellectual 
property, sensitive technology, and national security, while at 
the same time facilitating legitimate travel and international 
education.
    Thank you, and I look forward to your questions.
    Senator Portman. Thank you, Mr. Ramotowski. Well said.
    I am encouraged by the participation this morning, so 
because I will be here until the very end, I am going to keep 
my initial questions very short and just sort of set the stage 
and then turn to Senator Carper. Then we have Senators Hassan, 
Romney, Hawley, and Rosen.
    Let me just start, if I could, with a very quick yes-or-no 
answer. Mr. Brown, let us start with you. The Chinese media has 
reported extensively on the Thousand Talents Plan--it has not 
been a secret; it has been out there for over 10 years--noting 
that they had more than 7,000 participants as of 2017, so they 
say in their media.
    Yes or no, to you, Mr. Brown, without providing specifics 
or names of individuals, does the FBI have active, ongoing 
cases involving individuals associated with Chinese talent 
recruitment programs, including the Thousand Talents Plan?
    Mr. Brown. Yes.
    Senator Portman. Do individuals associated with Chinese 
talent programs compromise a significant percentage of the 
FBI's economic espionage cases?
    Mr. Brown. Yes.
    Senator Portman. Now, quick questions for Dr. Fall, Dr. 
Keiser, and Dr. Lauer. Dr. Keiser, first for you, yes or no, 
are you aware of NSF-funded researchers that have failed to 
disclose their participation in Chinese talent recruitment 
programs, including the Thousand Talents Plan?
    Ms. Keiser. Yes.
    Senator Portman. Dr. Fall, yes or no, are you aware of any 
DOE-funded researchers that failed to disclose their 
participation in a Chinese talent recruitment program, 
including the Thousand Talents Plan?
    Mr. Fall. Yes, sir.
    Senator Portman. Dr. Lauer, you said in a media interview a 
couple months ago that NIH ``does not know the scale of the 
problem,'' and ``is concerned that the scale is much worse than 
we are seeing.'' I appreciate your testimony this morning as 
well. Yes or no for you, are you aware of NIH-funded 
researchers that have failed to disclose their participation in 
Chinese talent recruitment programs, including the Thousand 
Talents Plan?
    Dr. Lauer. Yes.
    Senator Portman. Thank you. I look forward to getting into 
some more detail and digging into these questions further, but, 
again, I want to give my colleagues the opportunity to ask 
questions.
    With that, I would turn it over to Senator Carper.
    Senator Carper. One of my other committees has a hearing 
underway right now on clean water, and I need to be in two 
places at once. I will be leaving right after I ask a couple of 
questions. But thank you very much for coming.
    I want to take a moment and thank our staffs who have done 
a great job getting us ready for today and preparing this 
important report.
    Very briefly, let me just go down the line, starting with 
you, Mr. Brown. Tell me one thing we need to do differently on 
this Committee to better ensure a better outcome going forward, 
one thing that we should do. Very briefly.
    Mr. Brown. Briefly. I think you have done it, sir, with 
your report. I thank you for that. I think it brings greater 
awareness of the threat, and that is what we need right now, is 
awareness.
    Senator Carper. Thank you. Thanks so much.
    Dr. Keiser? Very briefly.
    Ms. Keiser. I agree that, yes, more attention being focused 
on this issue is key. We especially value that you have made 
these contracts public in your report because we need the 
community to understand what some of our researchers are 
signing up for. It is extremely concerning to us.
    Senator Carper. OK. That is good. Thank you. All right. Dr. 
Lauer.
    Dr. Lauer. Coordinated work and extensive outreach.
    Senator Carper. That was good. [Laughter.]
    You have been practicing. That is good.
    Mr. Fall. I would echo awareness among the academic 
community of the scope of the problem.
    Senator Carper. Thank you.
    Mr. Ramotowski. We would welcome the opportunity to work 
with the Committee on broadening authority.
    Senator Carper. All right. Thanks very much.
    I want to start, if I could, with Mr. Brown--I do not mean 
to pick on you, but why do you think the FBI was slow to 
recognize this threat? As sort of follow-on to that: What is 
the FBI doing differently now? A third part would be: What has 
changed since the FBI's efforts to counter Chinese talent 
recruitment were moved I believe from New Haven to FBI 
headquarters? Those three, please.
    Mr. Brown. First, from my perspective, we absolutely should 
have been faster without a doubt. But I would tell you that as 
that threat evolved in 2008, you had folks working it, but it 
just was not clear exactly the extent of it. Once it kind of 
crystallized in 2015, that is when we said, ``Hey, we have a 
problem here,'' and then obviously moved that to headquarters.
    What have we done now? I will tell you that since my 
arrival, we have actually nearly doubled the personnel within 
the unit that handles our talent plan program. We have also 
created the Counterintelligence Task Force to be more 
integrated within our field offices. I have created an 
Engagement Office within my Division to work on our messaging, 
because I agree with your report, our messaging is not--it was 
good, but it was not synchronized as it should be. We are 
continuing to focus on that.
    What changed being moved from New Haven to headquarters? I 
think we recognized that the threat was larger in scope than 
just a regional threat within the New Haven area, and that 
required a focus from a headquarters perspective and what I 
would call active program management from a headquarters 
perspective, directing field offices, OK, you have a threat 
over here in this field office, you had a threat in this field 
office. It needed to be a more national focus on it from that 
standpoint.
    Senator Carper. All right. Thank you.
    The second question would be really for all witnesses. We 
will start to my right, if you will, and we will come the other 
way. Our Subcommittee came away from its recent investigation 
concluding that American taxpayer-funded research has 
contributed to China's economic and military rise. This may be 
a hard question to answer, but initially I thought I might ask 
you to provide an estimate of how much we may have lost to 
China over the years. I think if that is too hard, I would ask 
you to say how might we go about measuring how much we have 
lost to China over the years. You can have your choice of 
either question. How much have we lost to China over the years 
as a result of this? Or if you do not have a good shot at that, 
a good idea for that, how might we go about measuring that 
loss, the extent of that loss? Please.
    Mr. Ramotowski. Senator, unfortunately I do not think the 
State Department is in the best position to analyze that 
question. I would defer to the experts here who actually 
conduct the research.
    Senator Carper. All right. Thank you.
    Mr. Fall. Sir, I would get back to you on the details, if 
that is all right. I am sure that we can come up with a 
reasonable way. But patents is one example. You see a big 
change in the number of patents that are filed out of China. 
Some of those are based on appropriated research, some not.
    Senator Carper. Thank you.
    Dr. Lauer. I agree that this would be hard to measure. I 
suppose one thing we can look at is the number of researchers 
and proportion of research dollars that we are currently 
spending and model that against known outcomes of NIH-funded 
research.
    Senator Carper. Good. Thank you. Dr. Keiser.
    Ms. Keiser. It is challenging for NSF because, of course, 
we fund basic research, and we require those research outputs 
to be made open. The challenge that we face is if those 
research projects are taken to China before our U.S. 
investigators can actually make them open. It is challenging to 
measure. I think what we would suggest doing is looking at the 
number of Chinese publications that are actual repeats of what 
NSF and other U.S. Government agencies are funding and our true 
overlap. Of course, that is unfair.
    Senator Carper. OK. Thank you.
    Mr. Brown, same question.
    Mr. Brown. I do not know that you can estimate. I think it 
is significant, no doubt. I think the patents, the rise in 
patents from China shows that, and it is a problem that we have 
to continue to address. It is not going to go away, and from 
our standpoint, I think our partnership and awareness is key in 
this fight.
    Senator Carper. Thank you. One last question, if I could, 
Mr. Brown. At least one university president wrote in a public 
opinion piece that he interpreted the FBI's outreach on this 
topic that we are discussing as inappropriate direction to spy 
on foreign-born students. Several other universities felt 
compelled to issue public letters to the university communities 
to clarify that their communities remain, and this is a quote, 
``open to people from all over the world.''
    What is the FBI doing differently in terms of outreach to 
address concerns like those?
    Mr. Brown. Sir, we see our relationship with the 
universities as a partnership, to collaborate, to protect their 
research institutions within the universities themselves. We 
have no intention of spying on students. That is not what we 
are trying to do. The bottom line is we are trying to come with 
a message that you may have a threat within your university, 
and you may want to address it.
    But at the same time, I will tell you that over the course 
of my tenure here, I believe--and I have seen universities I 
think change a little bit in how they perceive the threat. I 
think there is a willingness to partner with the FBI, 
recognizing that we are not coming there to arrest and we are 
not going to arrest our way out of it. We are coming there with 
a message to work together for the betterment of the United 
States and to the universities.
    Senator Carper. Good. Thanks.
    Mr. Chairman, sometimes when we have a hearing like this 
with five excellent witnesses and a tough, important issue 
before us, I will ask the witnesses to give us one thing that 
we ought to do more of on our side, on this side of the dais. 
Oftentimes what we hear is ``more oversight.'' Part of our job 
on this Committee is to be a little bit like if we could go 
back in time to Boston, Massachusetts, when the British were 
coming, the warning was sounded: ``The British are coming.'' 
Down in Houston, when we have a NASA mission that goes badly or 
goes wrongly, what we hear from up in space, ``Houston, we have 
a problem.'' Part of our job here on this Committee is to say 
we have a problem here. I think you realize we have a problem. 
It is a significant problem. This is an ``all hands on deck 
moment,'' and we appreciate the serious way that you approach 
this, and let us give it our best efforts. A lot of people are 
counting on us.
    Thank you.
    Senator Portman. Thank you, Senator Carper. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member 
Carper, and thank you and your staffs for this report. I want 
to thank all the witnesses who are coming before this 
Subcommittee today to discuss what is a critical matter. What 
we are really trying to do here is to find ways to develop a 
strategy to combat that our adversaries, and particularly 
China, are doing while staying true to our American values and 
what Dr. Keiser referred to as our ``uniquely American model.'' 
I am very grateful.
    I want to follow up first with you, Mr. Brown, on something 
that you and Senator Carper were really just drilling down on. 
As I understand from this report, no regulations or Federal 
guidelines currently exist to govern how research institutions 
and their researchers should interact with foreign talent 
programs and help to avoid academic or economic espionage from 
countries like China. Mr. Brown, what do you think we can do to 
develop clear requirements for universities to address talent 
recruitment programs while maintaining research integrity and 
not compromising national security interests?
    Mr. Brown. It is a difficult question. It is one the 
universities ask of us as well. I think part of that is our 
awareness with them in this report, as was mentioned up here, 
and continuing that engagement and with the understanding that 
the engagement is not to spy but to bring awareness to the 
problem with the talent plan, and hopefully they would be open 
to that type of engagement with us.
    But from a university perspective, like I said, I think I 
have seen that occurring, and there is a real willingness to 
engage with us.
    Senator Hassan. That is helpful to know. What I would 
suggest and hope is that as universities grapple with this 
challenge, they are likely looking for help from people, 
entities, our national security and law enforcement 
infrastructure, for how you go about doing fair, unbiased 
investigations to get at facts without subjecting people to 
some level of overreach, right? I think law enforcement and 
national security experts are really well positioned to help 
universities develop this kind of technique and structure, and 
I would really look forward to hearing more from the FBI as you 
all move forward about ways we can do that and more from 
university partners as well.
    Mr. Brown. Thank you, ma'am.
    Senator Hassan. Mr. Ramotowski, can you walk us through how 
the State Department vets foreign nationals who are seeking a 
visa to come to the United States to participate in research 
projects? How does the State Department work with the FBI and 
the Department of Homeland Security (DHS) to try to determine 
if a visa applicant has a preexisting contract with a foreign 
government that could threaten U.S. intellectual property?
    Mr. Ramotowski. Yes, thank you, Senator, and this process 
applies all over the world, not just in China.
    Senator Hassan. Right.
    Mr. Ramotowski. We require a personal interview for each 
applicant. They complete a detailed application form 
electronically in advance so the officer has that information.
    Senator Hassan. Right.
    Mr. Ramotowski. If they are coming to study or to become an 
exchange visitor researcher, there will be additional materials 
that they have to provide in advance of the interview. The 
officer will look at the results of biometric checks, facial 
recognition checks, name checks, and any other information that 
might be available to U.S. Government agencies about that 
particular applicant.
    The officer will ask questions about the applicant's 
intentions, why they chose a particular research institution or 
a particular university to enroll, to make sure that their 
story measures up. They will also look at sources of funding to 
ensure that the costs can be covered and if there are any 
particular concerns about funding sources.
    I would point out, though, Senator, that the visa 
application is a point in time, and, unfortunately, as we have 
seen with a lot of these talent programs, recruitment does not 
happen prior to the interview. It can happen in some cases 
years afterwards.
    Senator Hassan. But to back up for a moment, is there a way 
or can you--I think the answer to this is yes. Will you work 
more collaboratively with Homeland Security as well as the FBI 
to try to get at this issue of whether applicants have 
preexisting contracts? If the Chinese Government is telling 
them that they cannot share that with us and we know that there 
have been instances of applicants lying to us about it, how are 
we going to go about trying to get at that issue?
    Mr. Ramotowski. Yes, we will work much more closely with 
the FBI and other agencies such as Homeland Security and 
research partners here to gather as much information as we can 
before adjudicating the visa.
    Senator Hassan. OK. I thank you for that, and I think it is 
critical not just in this area, but State and Homeland 
Security. I have been a supporter of increased visa security 
teams for a variety of reasons, and this leads me to believe 
that there is an area of expertise here that we could really 
all benefit from. I look forward to continuing these 
discussions with you and the Department.
    Last question for Dr. Keiser. In the face of increasing 
cyber threats, including the growing use of artificial 
intelligence, the United States must protect its national 
security interests by investing in cutting-edge technology and 
leading global research efforts. We have to entice the best and 
brightest research talents from all across the globe to come to 
the United States to fortify our technological advantage.
    However, we know that China's Thousand Talents Plan is 
recruiting some of the very same researchers. This raises 
concerns about the potential for academic and economic 
espionage and how the United States can recruit research 
talents and maintain our strategic research edge over our 
rivals.
    Dr. Keiser, what is the research community doing to crack 
down on threatening international influence while supporting 
appropriate international collaboration?
    Ms. Keiser. We need to really truly protect our know-how 
and our knowledge. It is very true. However, we also need to 
make sure that we fund the best researchers based on two 
criteria. We have two criteria by which we select our research. 
It is intellectual merit, and it is broader impact of the 
research.
    If we select the best and then we encourage the best to 
continue with that research, we grow our system.
    Senator Hassan. Right.
    Ms. Keiser. We do not have enough funding right now to do 
that, as you know. It would be wonderful to do more. We want 
this research to be made open, and so when we are talking about 
threats in things like AI, we are more concerned about the 
theft of that knowledge before our researchers are allowed to 
make it open. What we need to do is increase awareness at 
universities of the obligations that, unfortunately, some 
researchers are signing up to that are made clear in these 
talent contracts that they are obligated to take this 
information back to China and not give credit to the U.S. 
researchers who are also being funded as part of this, publish 
it in China, get patents in China, and that is not OK.
    Overall, the best way, in our view, is to increase 
awareness of these obligations that are not fair to the system, 
number one; Number two, to make sure that we emphasize 
disclosure. As we have all said, our concern is that we do not 
know about these obligations that these researchers are signing 
up to. We cannot do anything about it unless we do know what 
these inherent conflicts are. We need to make sure that we 
communicate and emphasize disclosure of all of these unfair 
obligations as much as we possibly can.
    Senator Hassan. I thank you for that. Mr. Chairman, thank 
you for allowing us to go a bit over. I hope very much that 
this is one of the first steps we take in developing a real 
national strategy in combating this because, clearly, China has 
a strategy, and we need one of our own. Thank you.
    Senator Portman. Absolutely, I look forward to working with 
you on that. Senator Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Thank you, Mr. Chairman, for organizing 
this very important discussion today.
    Various members of the panel today have spoken about the 
need for awareness and disclosure. It would strike me that 
having spoken with some people that are concerned about this 
issue, they are aware of it; they recognize that even though 
they are aware, they are looking to say, ``What should we do 
about it?'' Just being aware of a problem does not tell them 
what to do. We are not giving them guidance as to what they 
should do. If they are aware someone might be willing to steal 
technology, what can they do about it?
    Likewise, if we say, ``Look, we want you to disclose,'' the 
bad guys will not disclose. The people who are planning on 
stealing technology are not going to disclose. They are 
stealing it for a purpose. They are getting paid to do it in 
some cases; in others, they are just doing it out of a sense of 
pride or nationalism for another nation.
    Apparently, Mr. Brown, there are thousands of people who 
are in this country that are intent on stealing technology. Is 
that right?
    Mr. Brown. I do not have an exact number in terms of our 
caseload, but it is significant, yes, sir.
    Senator Romney. Let us say thousands. How many are being 
prosecuted now?
    Mr. Brown. I do not have those exact numbers. Why don't I 
get them to you, though, sir?
    Senator Romney. But it would probably be single digits.
    Mr. Brown. Yes. It is not large, no, sir.
    Senator Romney. It is not 1 percent. We have a problem. 
Expecting the FBI to investigate, find these people, and 
prosecute them is not going to stop the theft of intellectual 
property. Letting people be aware of it is not going to stop 
the theft of intellectual property. We have to come up with 
something different.
    A number of you have spoken about the importance of 
bringing people over internationally and being able to advance 
technology by having a free flow of people internationally, and 
I certainly agree with that. At the same time, you pointed out, 
but we have some people that are stealing, and that is a real 
problem. But how do we bring the two together? What can we do? 
Because if you think back to a very different time during the 
Cold War, the idea that we would have invited Soviet students 
to come over and go to our universities, to go to our labs and 
so forth, saying, ``Hey, we are probably going to learn by all 
coming together,'' we probably would have. But we would not 
have brought them into our most sensitive research facilities 
because we knew they were intent on dominating or stealing 
those things in a way that would be not in our national 
interest.
    What do we do now? What suggestions do you have? For 
instance, at the Department of Energy, we just heard from Dr. 
Fall that the Department of Energy says we are not going to 
allow even though who are under contract with us, doing 
research for us, we are not going to allow them to participate 
in these talent recruitment programs, and yet that is not true 
at NIH with the people that are researchers under contract with 
you. Why should you not adopt that same policy? Dr. Keiser, Dr. 
Fall is doing it. Should NIH not do the same?
    Ms. Keiser. From NSF's standpoint--and maybe Mike can talk 
from NIH--these contracts are a strange hybrid of employment 
contracts and research contracts. We were able to bar our NSF 
employees and those who are rotating into NSF from 
participating in these talent contracts because, of course, 
they cannot have two employers.
    Similarly, we need to work with the U.S. universities 
because these researchers who are part of these contracts are 
employed by the U.S. university, and then they are getting a 
second employer, and they are not disclosing that to the U.S. 
university.
    We are making sure that we communicate the unfairness, of 
course, and the concern that we have to the U.S. universities, 
and we are finding that they are truly stepping up in taking 
action against those who are not disclosing that they are 
getting money from a foreign government and working at their 
university.
    Within the past few weeks, we have had several U.S. 
research institutions come to us saying that they have taken 
personnel action. They have requested transfer of the grants 
that these people have gotten away from them because of this 
conflict that they have.
    I think we just need to make sure that we continue to work 
together in partnership with our law enforcement collaborators 
as well as the U.S. universities who are the employers of these 
people to make sure that we all take action together.
    Senator Romney. I would note that we have all acknowledged 
that China has as its objective becoming the world's 
superpower, the hyper-power, by the middle portion of this 
century; that the point of the spear for them is technology, 
both for their economic dominance as well as for their military 
dominance. They are here stealing technology from us in every 
way they possibly can.
    I would suggest in a circumstance like that that relying on 
those that are being recruited by the Chinese, Russians, North 
Koreans, or Iranians to voluntarily tell us, ``Here is what I 
am going to be doing, here is the technology I am planning on 
stealing,'' that is just not going to happen. They are not 
going to do that. Therefore, relying on awareness and 
disclosure is not going to advance the ball for us. If we are 
serious about protecting America's future, we are going to have 
to put in place not just programs of awareness but programs 
with specific policy that we communicate to our research 
institutions and our universities, policies, regulations, and 
perhaps legislation. I do not know what that legislation looks 
like, but I think we are looking to you who are at this 
juncture where we want to have the exchange of ideas with other 
people and other nations, but with regards to those hostile 
powers that have been spoken about, do we not need to put in 
place specific policies, regulations, and legislation which can 
guide the State Department on issuing visas, which can guide 
each of your research institutions themselves, and with regards 
to NSF, cannot only guide your own researchers but those that 
are under contract with you? I think we need something more 
robust than just talking about letting our universities become 
more aware of it.
    We had a chance this last week in Utah to have members of 
the FBI and others come and present to the Governor and members 
of our legislature about these threats. Afterward, the comment 
that came to me was this was very interesting to hear and 
become aware of this concern, but what are you telling us we 
should do about it? Because they feel, gosh, if we do anything, 
we are going to look like perhaps we are ethnically insensitive 
or we are targeting people, profiling. What should we do? We 
have not given anyone guidance as to what they should do.
    I hope you can help us do that. I would love to get your 
recommendations after these hearings are over.
    Senator Portman. Senator Romney, thank you, and I totally 
agree with you. We will be talking in a moment about some of 
those legislative ideas, because I think you are right. I think 
this is a matter not of just awareness and encouraging our 
researchers and our universities and, for that matter, Federal 
agencies to do the right thing, but establishing what those 
standards are and making them uniform and giving everybody more 
clarity.
    By the way, this has been going on for 20 years and the 
Thousand Talents Program for 11 years. We have lost a lot. I 
talked to a Federal Government employee this morning for whom I 
have a lot of respect, and his name will remain confidential 
because I do not think it would be appropriate to disclose it. 
But his view was this is going to get worse. It is going to get 
worse. That 20 years of being negligent has now built a 
foundation that makes it even more challenging for us in terms 
of our competition on the military side and on the economic 
side. I think you are exactly right. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you very much, Mr. Chairman, and 
thanks to all of the witnesses for being here.
    I would like to explore some possible solutions here, some 
proactive steps that we can take to address what has become a 
very critical problem. I want to talk a little bit about my own 
proposal, the Homeland Security Counterintelligence Threat 
Reduction Act. That is a mouthful, but it is a big problem and 
one proposal that I have put forward with others and developed 
partly with the help of DHS. I will talk about that in just a 
second.
    First, let me just reference a letter that I found striking 
from the Director of the White House Office of Science and 
Technology Policy. That letter notes that American research 
institutions have historically benefited from the foreign 
talent recruitment programs that we are talking about here 
today, but observes that now in this new era of government-
sponsored science, what was once a benefit has now become 
really a liability for us, as you have been pointing to in your 
testimony. We are seeing, I think, how China abuses our open 
education system to directly benefit their military and their 
government, and I have to say having visited the streets of 
Hong Kong myself just a month ago, I can say that I have 
personally seen what the Chinese Government is doing with 
technology that it has acquired in part from the United States 
and how it is weaponizing it against its own citizens, against 
Chinese citizens on the streets of Hong Kong and elsewhere.
    Let me start, if I could, Mr. Ramotowski, with you. I 
recognize that your Bureau has relatively limited scope when it 
comes to the broader problem set here of technology and 
research theft in that your mandate is confined to visas. But I 
was somewhat surprised to learn, I have to say, from the 
Subcommittee's excellent report, for which I thank the 
Chairman, that less than 5 percent of those visa applications 
have been denied and that apparently the Bureau lacks a 
systematic means of tracking visa applications that are linked 
to China's talent programs. Can you tell us why that is the 
case and explain what the current situation is?
    Mr. Ramotowski. Yes, Senator. As I mentioned in my opening 
statement, the authority of consular officers to deny visas on 
the basis of suspect technology transfer is quite limited and 
is basically limited to items or technologies that are on the 
export control list maintained by the Department of Commerce.
    When we screen visa applicants for potential access to 
export controlled technologies, that covers only a small 
percentage of the total, and that results in only a few, 
comparatively few refusals.
    Senator Hawley. Then it seems to me that the implication of 
what you are saying is maybe we ought to be putting additional 
technologies on the export control list, particularly those 
that we know that the Chinese Government has a very distinct 
interest in, like the Made in China Program, for instance. I 
think there are 25 separate technologies that are targeted 
there. Maybe those ought to go on the export control list. What 
is your view on that?
    Mr. Ramotowski. Yes, we would welcome working with the 
Committee and the Congress and other agencies to close those 
gaps.
    Senator Hawley. Yes, I think that that is a very urgent 
need, and I have proposed doing just that. I look forward to 
working with you on that.
    Let me ask you about something else in this vein. Do you 
think that a task force would help with this, a task force 
stood up to review programs, make recommendations about 
improving counterintelligence vetting, conduct 
counterintelligence awareness training for faculty of colleges 
and universities, enhance the requirements of the student 
exchange visa program? Sort of tightening like this, would that 
be helpful?
    Mr. Ramotowski. In my opinion, Senator, outreach like that 
is very useful to raise consciousness about the seriousness of 
the problem. Yes, sir.
    Senator Hawley. I agree with you, and I hope that those are 
solutions that we might take up and that this Committee might 
take up.
    Dr. Lauer, let me come back to you. NIH has been at the 
center of a number of high-profile cases that have been 
reported in the media related to the issues we are discussing 
today, like the husband and wife working at Emory as 
neuroscientists who double-dipped on both American and Chinese 
research funds before they were caught; the Los Alamos 
physicist who lied about participating in the Thousand Talents 
Program was eventually charged.
    In your written testimony, I noted, you state that 
``individuals violating laws and policies represent a small 
proportion of scientists working in and with U.S. 
institutions.'' Yet--and this is the part that concerns me--
this Subcommittee's report notes that your Division of Grant 
Compliance has dropped in its site visits from 28 in 2012 to 
only 3 last year. Tell me about that. What kind of oversight is 
currently in place at NIH? How can you be confident that your 
testimony is accurate given the oversight capabilities and 
tools you currently have?
    Dr. Lauer. Thank you, Senator. As the Chairman mentioned, 
we do not really know the extent of the problem. We do know 
that the number of integrity cases overall and foreign 
influences concerns in particular have gone up dramatically. We 
now have a caseload that is in the hundreds, and it has been 
mentioned publicly we are now looking at over 140 scientists of 
concern.
    Senator Hawley. Are there additional tools, Dr. Lauer, that 
you think you need in order to conduct rigorous oversight?
    Dr. Lauer. We do work very closely with other agencies and 
in particular with law enforcement and intelligence. I think 
that over the past year in particular that degree of 
cooperation and joint learning has dramatically increased, and 
I think there is no question that that has helped us to 
identify problems and also to address them as we work with 
individual institutions.
    Senator Hawley. Thank you.
    Dr. Keiser, finally, for you, you noted at a recent event 
at UCLA that theft of research by China is very different in 
kind from the sorts of threats we faced, say, in the 1990s when 
our biggest concern was that research dollars would go to 
former Soviet weapons scientists. I just wonder, at a 30,000-
foot view, do you think our research institutions are seeing 
this difference in kind clearly? Are they clearly understanding 
that we are dealing with a qualitatively different issue, 
different problem, different challenge now than we were 20 
years ago? What has been your experience?
    Ms. Keiser. Senator, I think that they do. I think that the 
fact that the nature of the threat is so different today, 
meaning before, it was dual use, it was proliferation, it was 
things that we were used to dealing with in the classification 
system and the export control system and controlling. Because 
the difference is so strong now about threats to research 
integrity to our openness, to our transparency, that are 
creating economic benefit in China, it has been a challenge, I 
think, to convey why this is a threat. Why is openness a 
threat? Openness is a threat because it is being used in ways 
that we are very concerned about.
    As we have been talking more and more to the research 
community, I think they are understanding that these threats in 
the area of research integrity are jeopardizing our whole 
system. This is a system, as I said, that has made America 
incredibly successful. We want to make sure it is open, but 
others are taking advantage of it. I think we have an increased 
understanding of that throughout the community.
    Senator Hawley. Thank you very much for that.
    Mr. Chairman, thank you for this excellent report and the 
work of the Subcommittee, and thank you for your continued 
leadership on this very important topic.
    Senator Portman. Thank you, Senator Hawley. We look forward 
to working with you. I am going to now be looking into your 
legislation as well on the broader issue. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you. I, too, want to thank you so much 
for this spectacular report and, of course, to all of you for 
doing what you are doing, for your research, for your 
dedication, and your concern about all of this.
    I want to build upon the theme of coordination between 
entities because we know taxpayer-funded research at our 
Nation's universities and academic institutions play a pivotal 
role in developing innovative technologies, scientific advances 
that are used by the public, our businesses, our military, and, 
of course, the government. However, we also know that 
researchers and their institutions lack the resources needed to 
protect assets from foreign cyber attacks and espionage. The 
major challenge they face is a lack of coordination among 
Federal agencies, intelligence, security, science agencies, to 
assess the risks and determine specific steps agencies should 
take to address these risks.
    Senator Cornyn and I introduced the Secure American 
Research Act, which would establish an interagency working 
group that will identify and track risks, coordinate 
activities, and develop policy guidance to protect the 
federally funded research that you are working on, and protect 
them from foreign interference. This working group, of course, 
would include representatives from each of your agencies, FBI, 
NSF, NIH, DOE, Department of State, and over a dozen more.
    Drs. Keiser and Lauer, how do you think legislation like 
this and potentially others would amplify or support your 
current efforts to identify and mitigate the threats?
    Ms. Keiser. Coordination among our agencies is essential. 
We have to do this. We have been working much more closely 
together on this issue than I have ever seen before. I have 
been part of the government for more than 20 years. If you 
think that the threat came to our attention really a little 
over a year ago, within this past year we have talked to each 
other; we have coordinated policy. We are doing all sorts of 
things together more than I have ever seen.
    I think a mandate to have even more coordination and talk 
to each other more, so much the better. I welcome that, because 
I think that we do need that mandate to make sure that we can 
tell our leaders, look, we have to do this together. We might 
have to change a little bit as an agency to adopt to what 
others are doing, but we need to in the interest of the Federal 
taxpayer.
    Senator Rosen. Perfect. Thank you. Dr. Lauer.
    Dr. Lauer. I completely agree with Dr. Keiser. She and I 
see each other very often. We work together on a number of 
trans-government committees.
    I would also say that the efforts that you have made with 
your Committee's report and the publicity that comes along with 
it about the nature of the problems that we have is very 
helpful.
    Senator Rosen. Thank you. I want to move on then to our 
universities, because we have research happening within the 
university, within departments, and between universities. How 
can we ensure not just that administration, faculty members, 
but also students are aware of the threats of cyber attacks and 
espionage and we can coordinate, like I said, not just between 
universities but inter-university? Would anyone like to speak 
to that perhaps?
    Ms. Keiser. Right now, we already require from NSF 
responsible conduct of research training, and there is a very 
clear definition of ``responsible conduct of research.'' In my 
view, we need to add this ethical and research integrity 
training to that responsible conduct of research.
    Senator Rosen. How often does that training occur in 
research departments?
    Ms. Keiser. It does vary very much by institution. We 
require them to have a rigorous program and for everybody to be 
trained. I think the standard is that they up the training once 
a year. I am a firm believer that we cannot ask to have 
training. We need to provide models. We need to provide 
modules. We need to provide what we are actually talking about 
to help the research institutions. Then we do need to check up 
on them.
    Senator Rosen. Right.
    Ms. Keiser. We need to make sure that this is happening and 
that they are asserting it. So, much the better.
    Senator Rosen. Please. Then I will go on to my next point.
    Mr. Brown. Ma'am, if I may, in each of our 56 field 
offices, even right now there is an FBI agent, analyst, or 
professional staff interacting with the university, whether it 
is on cyber, counterintelligence, you name it. That type of 
interaction, that spread of the message, we have to do a better 
job of coordinating our message out. I will tell you that I 
think we are here today because the message has gone out. I 
take solace in the fact that the regulatory measures that they 
have put in place, the fact that we see the threat the same 
now, that we are making progress in this.
    Senator Rosen. I want to say to that regard as well, we 
know that we have these cyber threats, so in the interest of 
time, I am just going to say quickly that I have introduced 
with Senators Thune, Wicker, and Cantwell the HACKED Act and 
the Cyber Ready Workforce Act with others that is going to 
support the necessary cyber training and expertise funding 
across a multi-platform. Can you outline, in the short time I 
have left, some of the investments we have in cybersecurity 
training so we have the support personnel to help you do the 
research?
    Mr. Brown. Ma'am, I will tell you that there is a Cyber 
Task Force in every one of our field offices as well, and they 
are routinely going out and doing interaction with the 
universities. As the Special Agent in Charge in San Diego, I 
went out with our cyber folks. When we go out, we are doing 
one-day read-alongs usually to share classified information. I 
think in this environment right now, we have to share until it 
is uncomfortable toward your working group, right? We cannot 
have those compartments, those barriers, and we have to 
recognize that we are all in this together to defeat the 
threat.
    Senator Rosen. Thank you.
    Ms. Keiser. I want to emphasize, Senator, in addition to 
training, we need to do research on what are the best 
techniques to protect cyberspace. NSF has a program called 
``Secure and Trustworthy Cyberspace,'' and that is funding 
research into how to best protect our systems at universities 
and in the research environment overall. We would be happy to 
provide you with more information on that.
    Senator Rosen. Yes, I would love more information on that 
to see how I can help amplify that.
    I only have 3 seconds left, so I yield back. I know you 
have been waiting patiently. Thank you. Thank you all.
    Senator Portman. Thank you, Senator Rosen. Great line of 
questioning. I look forward to working with you, too, going 
forward. To our panelists, thank you again for your expertise. 
I did not get the chance to sort of dig a little deeper. I hope 
you do not mind sticking around for a while.
    Let us start with this issue of targeting scientists of 
Chinese descent. Earlier, Mr. Brown, you addressed this by 
saying from the FBI point of view, your investigations are not 
based on ethnicity. That is the word that you used. Let me ask 
some of the other panelists as well. Dr. Lauer, you and your 
colleagues have conducted a lot of investigations of grant 
applications that failed to disclose foreign conflicts of 
interest and commitment. Is it your assessment that Chinese 
talent recruitment programs only target scientists and 
researchers of Chinese descent?
    Dr. Lauer. No.
    Senator Portman. Haven't some of the most egregious cases 
you have found involved scientists and researchers who are not 
of Chinese descent?
    Dr. Lauer. Yes.
    Senator Portman. I think that is important to get on the 
record. That is certainly what we found in our investigation.
    Dr. Keiser, is it your assessment that the Chinese 
Government only is targeting scientists and researchers of 
Chinese descent?
    Ms. Keiser. No, sir.
    Senator Portman. Dr. Fall, same question for you.
    Mr. Fall. Absolutely not.
    Senator Portman. Let me ask you, Mr. Brown, because that 
might be confusing to some people. Why don't you tell us who 
you think the Chinese Government through the talent recruitment 
program are targeting? Who are they looking for?
    Mr. Brown. Sir, from our experience, they are looking for 
individuals who have access to information that is of value to 
their plans and their strategies moving forward, pure and 
simple. That is what they are trying to do, is build out toward 
their plan and strategy toward 2049.
    Senator Portman. It can be researchers and scientists of 
whatever, as you said earlier, ethnicity or nationality.
    Mr. Brown. Yes, sir.
    Senator Portman. It is more about what they have access to 
and what they are looking for.
    Another misconception, I think, as I have talked to some of 
my colleagues about this issue, is that China is identifying 
people in China and then sending them our universities. That is 
not the case, is it?
    Mr. Brown. No, sir, it is no.
    Senator Portman. Why is that not the case? Why are they 
targeting those people who are already here doing important 
research?
    Mr. Brown. They are targeting people that are here because 
they are already established and have access to the research.
    Senator Portman. Established doing the research that they 
want.
    Mr. Brown. Yes, sir.
    Senator Portman. It is really much more cost-effective.
    Mr. Brown. It is.
    Senator Portman. Much more efficient, I suppose, to go 
after people who are here already doing research, including 
research funded by the $150 billion a year that our taxpayers 
are providing.
    Let us talk a little about the contracts. Can we put the 
poster up of the contract? I appreciate the fact that earlier 
Dr. Keiser said that she was glad we were making people aware 
of these contracts. This is an example of a Chinese talent plan 
contract that we were able to access. We will talk in a moment 
about my frustration that we were not able to access more of 
those contracts. But let me ask you, Mr. Brown, first, what is 
the FBI's assessment of the impact these contracts have on 
U.S.-based researchers and scientists?
    Mr. Brown. The impact is significant because it basically 
forces the researcher to adhere to the contract with the 
Chinese Government, and so it is significant.
    Senator Portman. You have before you the copy of that 
poster, so you can see some of the specific provisions that 
violate U.S. research values, incentivize unethical and 
possibly illegal behavior. I would like to point out some of 
the differences between the U.S.-funded research and the 
Chinese-funded research.
    Provision 1 states, as you can see, that the talent plan 
member is bound by Chinese law and a commitment is made not to 
interfere with China's internal affairs. It says, and I am 
reading, ``shall observe relevant laws and regulations of the 
People's Republic of China and shall not interfere in China's 
internal affairs.''
    Mr. Brown, why does the FBI believe the Chinese Government 
has that provision in its contracts?
    Mr. Brown. Obviously, sir, they want them to adhere to the 
requirements within China. They are adhering to the Communist 
Party doctrine while they are working in China.
    Senator Portman. One thing I have heard is that this is 
often used as leverage over researchers to ensure that they 
follow through on these contracts. Would that be accurate?
    Mr. Brown. Yes, sir, it would be.
    Senator Portman. Dr. Lauer, and I guess for Dr. Keiser, Dr. 
Fall, and Dr. Lauer, all three of you, if you could just answer 
yes or no, do your researchers sign contracts requiring them 
not to interfere in U.S. internal affairs?
    Dr. Lauer. Not that I know of.
    Ms. Keiser. No, sir.
    Mr. Fall. No, sir.
    Senator Portman. OK. Dr. Lauer, would you like to amend 
your answer? [Laughter.]
    Dr. Lauer. No.
    Senator Portman. Thank you. You are not a lawyer. You are a 
medical doctor. You can actually answer the question. But it is 
so ridiculous that ``Of course not'' is the answer, right?
    Is it in line with U.S. research values to agree to abide 
by Chinese law in conducting U.S. taxpayer-funded research? For 
all three of you.
    Ms. Keiser. No, sir, it is not in line.
    Senator Portman. Dr. Lauer.
    Dr. Lauer. No.
    Mr. Fall. Of course not.
    Senator Portman. Dr. Keiser, do NSF researchers sign 
contracts requiring them not to be involved in internal affairs 
and to not reveal that they have signed a contract?
    Ms. Keiser. Not at all.
    Senator Portman. OK. The Subcommittee found that these 
talent contracts often included these nondisclosure provisions 
which prevent the disclosure from participation. Look at Item 8 
there. It says, and I quote, ``shall not disclose the contract 
to unrelated parties without consent.''
    Dr. Lauer, do you read that provision to mean that 
researchers who are doing U.S.-funded research are not able to 
disclose to U.S. agencies or universities that they are 
receiving payments from Chinese talent recruitment programs?
    Dr. Lauer. Yes, and that means they cannot disclose it to 
NIH either.
    Senator Portman. Right. In your investigations that you 
have done, have you seen similar provisions in Chinese 
contracts?
    Dr. Lauer. Yes.
    Senator Portman. All three of you, are your researchers 
forbidden from acknowledging the fact that the U.S. Government 
has funded their research?
    Dr. Lauer. Au contraire.
    Ms. Keiser. Yes, exactly. In fact, the opposite.
    Senator Portman. Dr. Fall.
    Mr. Fall. I have to be a little cautious, sir, because the 
Department of Energy does a lot of highly classified research 
as well. With that, the answer is no.
    Senator Portman. OK. That is understandable.
    Dr. Fall, let us follow up on DOE. Given that talent plan 
members are sometimes contractually forbidden from disclosing 
their participation in the program, do you believe Energy's 
recent directive for employees and contractors to self-disclose 
their affiliation will be followed?
    Mr. Fall. I have to be honest. It remains to be seen. We 
have the directive in place, and so----
    Senator Portman. Again to Senator Romney's point, 
particularly with regard to the Thousand Talents Program, they 
have gone underground now. They were up online a year and a 
month ago, and now they have taken it underground, so it is 
tough for us to have the transparency we had before to enable 
the FBI and others to do their work. I think it may be naive to 
think that a directive to self-disclose is going to be 
followed.
    By the way, our investigation also found that some contract 
provisions stated that intellectual property created by the 
talent plan member was the property of the Chinese institution, 
even if the research overlapped with U.S.-funded research. Dr. 
Lauer, has that been your experience in looking at some of 
these contracts?
    Dr. Lauer. Yes.
    Senator Portman. Look at Item 2 there, intellectual 
property rights, including copyright, patent rights, trademark 
rights, are owned by the Chinese institution. Mr. Brown, why 
would the Chinese Government want to include provisions on 
intellectual property in a talent recruitment contract?
    Mr. Brown. They recognize that the researcher that they 
have recruited is actually probably stealing some of the 
proprietary information, then using it to their benefit.
    Senator Portman. Is that in the interest of the United 
States?
    Mr. Brown. No.
    Senator Portman. Thank you.
    Let me ask about NSF funding, Dr. Keiser. People who may be 
watching this are not sure where this U.S. tax dollar goes. 
What is supposed to happen to products of fundamental research 
created under these NSF-funded grants?
    Ms. Keiser. We actually are mandated to make all products 
of fundamental research open and available. They need to credit 
NSF for funding these projects.
    Senator Portman. In effect, credit the taxpayers.
    Finally, our investigation found contracts with provisions 
that required talent plan members to recruit other researchers 
to be part of the team, effectively expanding the scope of the 
members, researcher, and influence. Point 6 on there, Item 6, 
``focus on recruiting one to two postdoctoral students each 
year.'' Dr. Lauer, is that something you have seen in other 
contracts as well?
    Dr. Lauer. Yes, we have.
    Senator Portman. It is a recruitment requirement as well.
    Dr. Keiser, you said earlier that you think making people 
aware of these contracts is a good idea, and I appreciated you 
saying that.
    I will say for all of you, particularly NIH, NSF, and DOE, 
what is preventing you from releasing more of these contracts 
to us? We tried very hard to get more contracts to be able to 
understand this better. I chose not to subpoena you for 
additional contracts because we had enough in conjunction with 
your testimony to get a flavor for it. But I do think that your 
willingness to give us more of these contracts would be very 
helpful.
    I think, Mr. Brown, the answer is going to be that the FBI 
discouraged them from doing so. That is certainly our 
experience. Could you just comment on that briefly?
    Mr. Brown. Sir, I do not know specifically, but I will go 
back and look at it and get back to you.
    Senator Portman. OK.
    The Subcommittee learned that these talent recruitment 
programs also have established shadow labs often in China. We 
mentioned that earlier briefly, but we have not gotten into 
that yet. These labs are typically undisclosed and designed to 
conduct nearly identical research in parallel with the U.S.-
funded research in the United States.
    Dr. Lauer, you have looked at some of these. Most U.S.-
funded research is designed to be published openly, as Dr. 
Keiser has said. Why is it advantageous for the Chinese 
Government to run these shadow labs in China?
    Dr. Lauer. This way they get priority. They are able to 
know what is happening in an American laboratory before the 
rest of the world does.
    One commentary I saw said it is an opportunity to avoid 
making mistakes. By knowing what the mistakes are, you do not 
make them, and that way you get a head start and you are able 
to get to the answer faster than anybody else.
    Senator Portman. In effect, leapfrogging the U.S. research.
    Dr. Lauer. Yes, exactly.
    Senator Portman. By taking advantage of the taxpayer-paid 
research. Can you describe what you have uncovered as it 
relates to shadow labs in China more broadly? Are the U.S.-
based institutions typically aware that the researchers have 
these shadow labs in China?
    Dr. Lauer. Actually, what is particularly striking is that 
many of the American institutions had no idea that their own 
faculty had a laboratory in China or were spending substantial 
time in a foreign country. They became aware of this only by 
virtue of the fact that the government came asking.
    Senator Portman. As we have asked questions in this 
investigation, we have found exactly that. In fact, one case 
that comes to mind is a major U.S. university that did not 
realize that the scientist in question had gone back to China 
and spent the summer in a shadow lab in China. No clue. I think 
these shadow labs also, it would be fair to surmise, are in 
place to act as an incentive. In other words, it is not just 
that they are paying individuals. They are saying, ``We will 
set you up with a first-class lab in China.'' Is that accurate?
    Dr. Lauer. Yes.
    Senator Portman. To Dr. Lauer, Dr. Fall, and Dr. Keiser, 
just generally, setting the table here, how quickly have 
China's science and technology capabilities developed over the 
past, let us say, 10 years? How quickly?
    Ms. Keiser. Incredibly quickly. We have found that the 
number of Chinese publications and the amount of funding has 
increased immensely, and as you said, it has been over the past 
10 years.
    Senator Portman. Dr. Lauer.
    Dr. Lauer. Yes, I agree with that.
    Senator Portman. Dr. Fall.
    Mr. Fall. I would add it is not just about papers. It is 
about areas where I think we believe that they are closing in 
on the quality of the research.
    Senator Portman. This goes to the point I made earlier 
about talking to this individual at a senior level in 
government who believes that some of the impacts of what we 
have seen in the last 20 years really is maybe yet to be seen 
quickly on the military side.
    Four months ago, the FBI Office of Private Sector formed a 
team dedicated to outreach to universities, colleges. That did 
not exist before 4 months ago. I am glad you did it. How will 
the FBI now better coordinate its messaging across the 56 field 
offices to ensure that the tailored threat information is being 
conveyed to our research institutions?
    Mr. Brown. Sir, I will say that through our Office of 
Private Sector, they are engaging daily now with the academic 
associations, and working with the 56 field offices, the 
Special Agents in Charge (SACs), the Assistant Special Agents 
in Charge (ASACs), the agents, the analysts within those field 
offices become the FBI's message, point of message to the 
universities. We are confident with that model that we will 
continue to get our message out. Clearly, I think our message, 
as your report indicated, needs to be more synchronized, needs 
to be more tailored. We are committed through the Office of 
Private Sector and, quite frankly, I created an Engagement 
Office to work with the private sector, just created it to 
ensure that we are getting our message out as needed.
    Senator Portman. As was said earlier on the panel, 
awareness, transparency is critical, but it is not enough. For 
you to contact a university as an example and make them aware 
of the fact that there are members of these talent recruitment 
programs who are researchers there is a good thing. But the 
question is: What is the follow-up?
    You said earlier that you encouraged them to take action, 
but you don't require them to take action. Among the solutions 
that have been discussed today and that we have looked at--and 
as I mentioned at the outset, this Subcommittee is known for 
digging deeply into something and then actually coming up with 
something constructive and bipartisan to address it. We have 
had some success with that.
    One idea is to simply require that all these Federal grant 
applications be harmonized, be uniform, because there are 
differences even among the three of you, and others as well. 
How do you feel about that so that we have clarification on 
what the grant applications ought to look like?
    Ms. Keiser. We agree with that as well, and we are moving 
toward that point in a couple of ways. I think as was pointed 
out in the written testimony, we, NSF, are adopting NIH's form 
for disclosure of biographical information, and we are 
developing a web-based form for disclosure of all sources of 
support, current and pending support, that both NIH and 
Department of Energy would like to adopt as well. We are moving 
toward standardization as well as talking about more ways to do 
that through the OSTP Committee that you mentioned. We welcome 
any ideas for further standardization, absolutely.
    Senator Portman. Dr. Lauer.
    Dr. Lauer. I totally agree, and just as NSF is leveraging 
NIH's software technology for bio sketches, we will be 
leveraging the work that they are doing on disclosure of 
outside research support.
    Senator Portman. Dr. Fall.
    Mr. Fall. Yes, we are coordinating as well, and I would say 
that, you mentioned a very good point, that self-disclosure is 
not the answer to all the problems, but oftentimes we see that 
the self-disclosure is different to different agencies, and 
that is where commonality of forms and processes starts to 
uncover suggestions of impropriety.
    Senator Portman. Another one which is about collaboration 
between you all and other Federal agencies is requiring 
information sharing. I know some of that has started to go on. 
I mentioned the White House Office of Science and Technology 
opening to open up more communication, but when you have an 
investigation in your agency, do the other agencies know about 
it? When you have chosen to terminate a grant fund, do you 
share that information? Do you disclose conflicts of interest? 
I assume there is some overlap with some of the researchers and 
scientists. Is that information being shared already? If not, 
should it be?
    Ms. Keiser. Information on active investigations, the 
active investigations occurring by our Office of Inspector 
General, is not shared, often is not shared even with us as an 
agency for obvious reasons.
    Information on debarments and suspensions I believe we do 
share among the grant agencies to make sure that we are 
consistent in that.
    Senator Portman. That is not required, but as a practice 
you are starting to do that. Is that your answer?
    Ms. Keiser. I think there are some U.S. governmentwide 
debarments. Obviously, for that reason, we would share those. 
When it is an agency debarment, we share that information. I 
believe it is voluntarily. There is no requirement, but we 
definitely do share that information.
    Senator Portman. Dr. Lauer.
    Dr. Lauer. I think we are sharing more information now than 
we were in times past, particularly on specific cases. We also 
are working--we have software by which agencies can share 
information about grants applications with one another. One of 
the reasons why we do that is to avoid inadvertent duplicate 
publication of funding, and that is something that we are doing 
more of.
    Senator Portman. Another one which I think you, Mr. 
Ramotowski, asked us to look into at the end of your opening 
statement is what additional authorities you could have to be 
able to properly vet. We heard in our investigation that U.S. 
university officials are relying on you, relying on the State 
Department to vet foreign researchers for intellectual property 
theft. They feel like they do not have to do it because you are 
doing it. Yet as we looked into it, very rarely does State deny 
a visa related to intellectual property theft. Do you need 
additional authorities to be more effective at this to be able 
to vet foreign researchers before issuing a visa?
    Mr. Ramotowski. Yes, Senator, we would like to work with 
you and the Committee to close gaps in the authorities that 
have been identified, not only State authority but other 
agencies also.
    Senator Portman. OK. Those are some areas where I think 
there could be a fruitful legislative and regulatory response.
    Let me ask you a broader question, which is probably on the 
minds of people who are listening today or watching. Why should 
any federally funded research go to somebody who is a member of 
a talent recruitment program? Dr. Lauer. Dr. Keiser looked at 
you, so---- [Laughter.]
    Dr. Lauer. I think the real concern is why should any money 
go to any researcher who is not being open, honest, 
transparent, and playing by the rules. There is an established 
set of norms and rules that have been in place for many decades 
by which the biomedical and the scientific enterprise runs. I 
think we would all be agreed that we should not be supporting 
scientists who are unethical and willfully breaking rules.
    Senator Portman. In that case, anybody that signs ones of 
these contracts as we have seen here would be in that category 
by definition.
    Dr. Lauer. Yes.
    Senator Portman. Dr. Fall.
    Mr. Fall. I agree.
    Senator Portman. Dr. Keiser.
    Ms. Keiser. I think the challenge that we have is exactly 
as you stated in your report. These contracts are going 
underground. They also are evolving and changing. Part of the 
concern we have is keeping up with understanding what people 
are signing and what the terms are that they are signing. That 
is why we do definitely need the help of our FBI partners in 
that regard.
    Senator Portman. That brings us to our final question. Good 
segue. I think, Mr. Brown, we are going to ask you about this, 
but our report looked at just one of China's more than 200 
talent recruitment programs. It is the best-known one and may 
be the largest one. We are not sure. Again, their goal was to 
have a couple thousand people. Now they have 7,000 people. They 
have exceeded their expectations on this.
    We know that a lot of the efforts we talked about this 
morning were based on the information that was publicly 
available online until just last year. Frankly, a lot of our 
work is based on information that was publicly available.
    The Chinese Government has now deleted that information and 
has issued directives to its research institutions not to talk 
about these programs publicly anymore to any of you and 
certainly not to us.
    How can we be confident that the FBI will have the 
capability to detect, assess, and mitigate the risks with 
China's talent plans or the next one or the next one after 
that? Are you prepared to evolve your efforts as the Chinese 
Government changes its tactics?
    Mr. Brown. Yes, sir. As it comes to this, I will tell you 
that the team that we have that has been focused on this, I 
know your team met with them. We have turned the corner when it 
comes to the talent plan problem. But at the same time, we 
recognize we have to have other means to discover talent plan 
members, and we are working that. Whether it is through the 
USIC, whether it is with our partners at this table, we 
recognize that we need to develop that. We are developing that. 
I cannot go into specifics of exactly what we are doing, but we 
know that we need to have targeted discovery more than ever now 
because of it going underground.
    Senator Portman. You are not able to tell us how you are 
going to deal with this now that the contracts are not publicly 
disclosing their membership?
    Mr. Brown. Sir, we can discuss ways we can find additional 
talent plan members, but I prefer not to do it in an open 
forum.
    Senator Portman. I would be interested, and I know Senator 
Carper would as well, to have the opportunity to be with you in 
a classified setting to talk about that.
    Mr. Brown. Absolutely.
    Senator Portman. Because it is clearly a challenge, and if 
we can be helpful, I think that is important as well.
    Do you think your agencies are prepared? Dr. Keiser, are 
you prepared as this threat evolves?
    Ms. Keiser. Frankly, this threat is evolving so quickly, 
and we were just made aware of it so recently, in 2018, that we 
are taking the steps to be as prepared as we can be to this 
point. But, frankly, we can do more. We know we can do more. We 
need to coordinate among the interagency on what additionally 
we need to do.
    Senator Portman. I must say one thing. I was tempted to say 
this earlier in response to your notion that you just learned 
about it last year, which I do not dispute. But it has been out 
there for 20 years.
    Ms. Keiser. It has.
    Senator Portman. Certainly since 2008, it has been very 
publicly out there.
    Ms. Keiser. Absolutely.
    Senator Portman. China has not tried to hide the ball. They 
have said they are going after your taxpayer-funded research.
    Ms. Keiser. That is right.
    Senator Portman. Why did you not know about it until last 
year?
    Ms. Keiser. I think because we are an open science funding 
agency, this is such a different kind of threat of taking 
advantage of our values and the openness and transparency that 
it was just so hard to understand. We are very grateful to our 
FBI and Inspector General partners for bringing it to our 
attention. It was quite recent because often a lot of these 
things are not in the area of being illegal. But they are 
against research integrity and they are unethical, so this is a 
different kind of threat that we are getting to understand.
    Senator Portman. Thank you for your candor.
    Dr. Lauer, are you prepared?
    Dr. Lauer. I think we are much better prepared than we were 
awhile back, and we have a lot more work to do.
    Senator Portman. Dr. Fall.
    Mr. Fall. First, I would just like to echo Dr. Keiser that 
this is so contrary to fundamental scientific values that it is 
hard to get your head around that this is being done to you.
    In terms of the Department of Energy, I think we are 
already looking beyond the talent programs and not using that 
as a screen. We have developed, along with our laboratories, a 
risk matrix for technologies that are national security 
relevant or economic security relevant, and you can imagine a 
sort of stoplight chart of technologies in countries of risks 
and whether our national laboratories will be willing to work 
with people, will be viewed through that lens.
    Senator Portman. You mentioned that earlier, and if you are 
willing, the Subcommittee would like to find out more about 
that risk matrix and how that maybe could be used in other 
agencies as well, understanding that you have more classified 
research than most.
    I just want to thank the witnesses for being here today. It 
is a complicated issue, a very important issue for our future, 
and really for the future of the globe. This notion of our 
rules of integrity, transparency, and collaboration has been 
essential to, as Dr. Lauer said earlier, some of the huge 
advances as an example and the health of not just Americans but 
citizens all around the globe. It has been extraordinary. In a 
sense, that is at risk as well. This is not just about taking 
our secrets and using them often in effect against us 
economically and militarily, but it is about also what is the 
ethic here, what is the standard, and who is going to set it.
    It is clear that the threat China's talent recruitment 
programs pose to U.S. research is one where we need a stronger 
and more coordinated response. It is also clear to me that this 
threat is not going away. I think it is going to increase 
unless we do things differently. With the Thousand Talents Plan 
going underground, again, China is going to likely change how 
it attempts to gain access to our research institutions. We 
have to be nimble. We have to understand that it is going to 
evolve. We have to be prepared for whatever form this threat 
takes going forward.
    I certainly stand ready to work with you all and others to 
be sure we are helping our Federal agencies fully address this 
threat from China and, therefore, helping our research 
institutions. We want to do it in a thoughtful, bipartisan way, 
and I think my colleagues on this Subcommittee you saw here 
today all want to get at the same issue. I think we can work 
together to come up with some help for you at the legislative 
level, and I look forward to working with our partners in the 
Executive Branch and the Administration to ensure that we are 
better prepared to protect America's research equities.
    I thank you for being here today. The hearing record will 
remain open for 15 days for any additional comments you might 
have or questions from any of the Subcommittee members. With 
that, this hearing is adjourned.
    [Whereupon, at 12:05 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
